No. 20-6323
IN THE SUPREME COURT OF THE UNITED STATES
LAMONT ANDRE THOMAS, PETITIONER
v.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, by first-class mail,
postage prepaid, this 13th day of January, 2021.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218
January 13, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you
for your consideration of this request.

20-6323
THOMAS, LAMONT ANDRE
USA

LAMONT ANDRE THOMAS
PRISONER ID# 38124-007
FCI BEAUMONT
P.O. BOX 26030
BEAUMONT, TX 77720

